                                   Closeout for MOO080029

    In August 2000, we learned that a PI1 had recently submitted a proposal2
 whose Current and Pending Support (CPS) form appeared inconsistent with the
 CPS forms in his previous N S F proposals.3 The Program Officer4had not
 received a satisfactory explanation from the PI about the inconsistencies.
 Because of the inconsistencies in the PI'S disclosure of his CPS, it appeared the
 PI might be receiving more than 3 months of summer salary and that one of his
 NSF proposals was overlapping with an award from another agency.5
   In his explanation to us, the PI said that a new secretary had made some of
the errors, and that he did not carefully review the CPS form before submitting
his proposals. His letter included a table with all the relevant grant
information and explanations of errors in his CPS forms. He pointed out that
his most current submission6 contained three errors and provided u s and his
Program Officer with a corrected CPS form. He said he has never received more
than 3 months of summer salary, and his table supported his statement.7
   He explained the history of the two similar            and said there was no
significant overlap between these two grants. We asked a Program DirectoI-8
with expertise in the area about the overlap, and he said that the NSF award
had possible overlap with one of four research avenues in the other agency's
award. Since the NSF award was funded first, there is no problem with his
disclosure to NSF. Because of this, together with his correction of his CPS
form, we are closing this inquiry and will take no further action on this case.
                                                          I


cc: Investigation, IG




      (footnote redacted).
      (footnote redacted).
      (footnote redacted).
      (footnote redacted).
      (footnote redacted).                                                %

      (footnote redacted).
      A s noted in an earlier documentation in this file, an OIG auditor said that if the university
were complying with OMB Circular A-2 1, it would not pay a PI more than 3 months summer
salary even if the PI had managed to obtain awards with more than 3 months summer support.
    8 (footnote redacted).



                                            Page 1 of 1                                    MOO-29
